ACELA CAR PURCHASE:
Questioned Costs Identified in Price Proposal

Report Summary
Because this report may contain contractor proprietary or confidential
data subject to a nondisclosure agreement, we are providing a summary
of the report only.




                                 Summary Report No. OIG-A-2013-002 | December 4, 2012
   NATIONAL RAILROAD
   PASSENGER CORPORATION
                                        Office of Inspector General

Date:        December 4, 2012

Subject:     Acela Car Purchase: Questioned Costs Identified in Price Proposal
             (Summary Report No. OIG-A-2013-002)


On February 27, 2012, Amtrak received a price proposal to deliver 40 Acela coach cars.
Given the high dollar value and Amtrak’s plan to award a sole-source contract, we
initiated a review of the price proposal to determine whether it was based on well-
supported and reasonable cost and pricing data.



SUMMARY OF RESULTS
The price proposal contained amounts that, in some cases, were not based on well-
supported and/or reasonable cost data. As a result, we questioned those costs.

The price proposal included Comments to the General Provisions and to the Supplementary
General Provisions. We did not analyze these comments to determine their impact upon
the pricing, but observed that the comments suggested modifications to significant
terms and conditions in the request for proposal, including the audit provision.


RECOMMENDATIONS

We recommended that Amtrak’s Chief Logistics Officer

1. use the information in the report to help negotiate a lower contract price, and


2. retain the audit provision set forth in the request for proposal in the terms and
   conditions of the final contract.
                                                                                         2

                            Amtrak Office of Inspector General
             Acela Car Purchase: Questioned Costs Identified in Price Proposal
                 Summary Report No. OIG-A-2013-002, December 4, 2012



MANAGEMENT COMMENTS AND OIG ANALYSIS

In commenting on a draft of this report, Amtrak’s Chief Logistics Officer agreed with
our recommendations. In October 2012, Amtrak decided to forgo purchasing the
additional Acela coach cars. As a result, Amtrak has avoided all costs associated with
this purchase. Based on this information, a portion of Amtrak’s cost avoidance is
attributable to our report.



OIG TEAM MEMBERS
David R. Warren, Assistant Inspector General, Audits

Edward Stulginsky, Deputy Assistant Inspector General, Audits

Matthew Simber, Senior Director

Michael Kennedy, Senior Director

David Burrell, Senior Auditor

John Flynn, Senior Auditor

Roslyn Kessler, Senior Auditor

Ed Fontaine, Contractor

Wiesam Sheikhi, Contractor

Michael P. Fruitman, Principal Communications Officer
                                                                                         3

                            Amtrak Office of Inspector General
             Acela Car Purchase: Questioned Costs Identified in Price Proposal
                 Summary Report No. OIG-A-2013-002, December 4, 2012

            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission          The Amtrak OIG’s mission is to
                              • conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;

                              • promote economy, effectiveness, and efficiency within
                                Amtrak;

                              • prevent and detect fraud, waste, and abuse in Amtrak's
                                programs and operations; and

                              • review and make recommendations regarding existing
                                and proposed legislation and regulations relating to
                                Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                              Web:      www.amtrakoig.gov/hotline
                              Phone:    800-468-5469

Congressional and             E. Bret Coulson, Senior Director
Public Relations              Congressional and Public Affairs

                              Mail:      Amtrak OIG
                                         10 G Street, N.E., 3W-300
                                         Washington, D.C. 20002

                              Phone:     202-906-4134
                              E-mail:    bret.coulson@amtrakoig.gov
